                                          National Science Foundation
                                               4201 Wilson Boulevard
                                              Arlington, Virginia 22230


Office of Inspector General




MEMORANDUM

DATE:

TO:                David A. Elizalde, Director
                   Division of Acquisition and Cooperative Support (DACS)

FROM:              Deborah H. Cureton
                   Associate Inspector General for Audit

SUBJECT: NSF OIG Audit Report No. OIG-07-1-005, Audit of Temple University’s Incurred
         Costs under NSF Contract Number REC-9912177

In response to NSF’s request for audit support, we contracted with the Defense Contract Audit
Agency (DCAA), Pennsylvania Branch Office, to perform an incurred cost audit of Temple
University’s (Temple) Task Orders B08995X and B14036X under the cost-plus-fixed-fee NSF
Contract Number REC-9912177. The period covered by the audit was October 1, 1999 through
September 30, 2005 [spanning Fiscal Years (FYs) 2000 through 2005]1, during which Temple
claimed a total of $4,898,293. An amount of $1,434,458 was claimed under task order
B08995X, and $3,463,835 was claimed under Task Order B14036X under the NSF contract.
The contractor provided technical support for “Accountability and Assessment of Programmatic
Evaluation” for NSF’s Research, Evaluation, and Communication Division (REC), in the
Education and Human Resources Directorate.

The objectives of the audit were to:

           •    Determine whether costs charged to the NSF contract by Temple University are
                allowable, allocable and reasonable for all direct and indirect costs in accordance with
                the contract terms and applicable government acquisition regulations, and;

           •    Identify instances of noncompliance with laws, regulations, and the provisions of the
                award agreements and weaknesses in Temple’s internal control over financial
                reporting that could have a direct and material effect on the costs claimed by Temple
                and its ability to properly administer, account for, and monitor its NSF award.

The audit was performed in accordance with Generally Accepted Government Auditing
Standards. The DCAA audit report and Temple University’s response, which was received by
DCAA subsequent to the audit, are attached to this memorandum.


1
    Temple University’s fiscal year is July 1 though June 30.
                                                         NSF OIG Audit Report No. OIG-07-1-005




Summary of the Results of the Audit

The DCAA auditors were able to verify the claimed costs of $1,434,458 under task order
B08995X without exception. However, the audit of the $3,463,835 claimed under task order
B14036X disclosed $1,547 of questioned alcohol costs, including the associated indirect costs
and $231,838 of costs questioned because they exceeded the total award ceiling amount of
$3,231,997. At the time of the audit, NSF had paid Temple $142,082 of the $231,838 that
Temple had claimed over the ceiling of the award. Temple agreed with the $1,547 of questioned
alcohol costs. However, Temple did not agree that they had claimed any costs in excess of the
total amount of its NSF contract. Temple explained in its response that the contract was
originally funded at a cost of $3,581,997, and that on September 23, 2004, NSF deobligated
$400,000 under Modification 6 to the Task Order. The modification estimated that the
remaining funding would support the project through November 30, 2004; however Temple
states that it was advised by NSF that more funding would be forthcoming to cover the costs of
contract performance. Moreover, Temple cites specific language from Modification 6 in its
response as follows:

       “This deobligation of funds does not reduce Temple’s overall estimated contract value, it
       simply reduces funding,” and

       “NSF will provide additional funding to support performance of this task during FY ’05
       through contract modifications.”

Temple asserts that the language of Modification 6 indicated that NSF intended for it to continue
performance on the basis that it would be reimbursed up to the original amount of the contract,
therefore the original contract amount of $3,581,997 was not overspent.

NSF contracting officials provided documentation that shows that NSF obligated an additional
$175,000 under Modification 9 in May 2006. However, neither NSF nor Temple officials had a
signed copy of Modification 9. Therefore, DCAA would not recognize the modification to the
contract in its audit because the modification was not signed by NSF nor was Temple aware of
the modification at the time of the audit. NSF issued this modification on a unilateral basis to
Temple without requiring that Temple acknowledge receipt of the modification. Even with the
additional funds, the new amount is insufficient to cover Temple’s total claimed costs. NSF
Contracting Officials will need to address this difference in their contract closeout process, and
require that Temple submit a revised incurred cost submission to reflect the Contracting
Officer’s decision for final closeout.

We recommend that NSF resolve the $231,838 in questioned costs over the ceiling of the
contract and require that Temple submit a revised incurred cost submission accordingly. We
also recommend that whenever NSF issues a unilateral contract modification, that it ensure that
the institution has received the contract documentation, and that a signed copy of the contract
modification is kept in the official contract file.




                                                 2
                                                      NSF OIG Audit Report No. OIG-07-1-005


We are providing a copy of this memorandum to the Education and Human Resources
Directorate/Research, Evaluation, and Communication (EHR/REC). The responsibility for audit
resolution rests with DACS. Accordingly, we ask that no action be taken concerning the report’s
findings without first consulting DACS at (703) 292-8242.

OIG Oversight of Audit

To fulfill our responsibilities under Generally Accepted Government Auditing Standards, the
Office of Inspector General:

      •   Reviewed DCAA’s approach and planning of the audit;
      •   Monitored the progress of the audit at key points;
      •   Coordinated periodic meetings with DCAA and OIG management to discuss audit
          progress, findings and recommendations;
      •   Reviewed the audit report prepared by DCAA to ensure compliance with Generally
          Accepted Government Auditing Standards and Office of Management and Budget
          Circulars; and
      •   Coordinated issuance of the audit report.

DCAA is responsible for the attached auditor’s report on Temple University and the conclusions
expressed in the report. The NSF OIG does not express any opinion on Temple’s incurred cost
submissions, accounting system, or the conclusions presented in DCAA’s audit report.

We thank you and your staff for the assistance extended to us during the audit. If you have any
questions about this report, please contact Sherrye McGregor at (703) 292-5003 or Jannifer
Jenkins at (703) 292-4996.


Attachment: DCAA Audit Report of Temple University Incurred Costs
            for Fiscal Years 2000 through 2005
            Temple University Response to Audit of NSF Contract No. REC-9912177,
            dated 30 October, 2006 from XXXXXXXXXXXXX


cc:       Division Director, EHR/REC
          Mary Sladek, EHR/REC




                                              3
            DEFENSE CONTRACT AUDIT AGENCY

            AUDIT REPORT NO. 6701–2006E17900002

                                                                   October 31, 2006
PREPARED FOR: National Science Foundation
              Office of Inspector General
              ATTN: Sherrye L. McGregor, Attorney Advisor
              4201 Wilson Boulevard
              Arlington, VA 22230

PREPARED BY:     DCAA Pennsylvania Branch Office
                 700 American Avenue, Suite 100
                 King of Prussia, PA 19406-4031
                     Telephone No.      (610) 878-2860
                     FAX No.            (610) 878-2870
                     E-mail Address     dcaa-fao6701@dcaa.mil

SUBJECT:         Report on Cost Verification
                 On Contract Number REC-9912177

REFERENCES:      National Science Foundation Contract Number REC-9912177
                 Relevant Dates: See Page 6

CONTRACTOR:      Temple University
                 1805 N Broad St
                 Philadelphia, PA 19122-6003

REPORT RELEASE RESTRICTIONS: See Page 7

                                                                             Page
CONTENTS:         Subject of Audit                                            1
                  Scope of Audit                                              1
                  Results of Audit                                            1
                  Contractor Organization and Systems                         5
                  DCAA Personnel and Report Authorization                     6
                  Audit Report Distribution and Restrictions                  7




                          XXXXXXXXXXXXXXXXXXX
Audit Report No. 6701-2006E17900002


                                    SUBJECT OF AUDIT

    As requested by your letter on January 23, 2006, we examined the cost incurred on National
Science Foundation Contract Number REC-9912177 for the period of October 1, 1999 through
September 30, 2005. The purpose of the examination was to verify the costs claimed to the
contractor’s books and records and to determine the allowability and allocability of the costs
charged to the contract.

    The data and records examined are the responsibility of Temple University. Our
responsibility is to express an opinion based on our examination.

                                      SCOPE OF AUDIT

     We conducted our examination in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the examination to obtain
reasonable assurance about whether the data and records examined are free of material
misstatement. An examination includes:

    •    evaluating the contractor’s internal controls, assessing control risk and determining the
         extent of audit testing needed based on the control risk assessment;
    •    examining, on a test basis, evidence supporting the amounts and disclosures in the data
         and records reviewed; assessing the accounting principles used and significant
         estimates made by the contractor;
    •    evaluating the overall data and records presentation; and
    •    determining the need for technical specialist assistance.

    We evaluated the claimed cost using the applicable requirements contained in the:

    •    OMB Circular A-21,
    •    Federal Acquisition Regulation (FAR), and
    •    Contract provisions.

     The scope of our examination reflects our assessment of control risk and includes tests of
compliance with applicable laws and regulations that we believe provide a reasonable basis for
our opinion. Our assessment of control risk reflects that we have not specifically examined
Temple University’s accounting system and its related internal controls.

                                    RESULTS OF AUDIT

    In our opinion, we were able to verify the claimed cost of $1,434,458 under task order
B08995X without exception. However, our audit of the claimed cost of $3,463,835 under task
order B14036X disclosed $1,547 of questioned costs and $231,838 of claimed costs in excess of
contract requirements. Also, the contractor has been paid $142,082 over the task order ceiling.




                               XXXXXXXXXXXXXXXXXXX
Audit Report No. 6701-2006E17900002


     The details of the claimed reimbursable cost are summarized as follows:

                         Summary of Temple University Claimed Costs
                   Under Contract Number REC-9912177 and Results of Audit

                                         Task Order B08995X

Description                   Claimed          Questioned     Note   Page
Personnel                    XXXXXXX               $ 0
Fringe Benefits              XXXXXXX               $ 0
Supplies/ODC                 XXXXXXX               $ 0
Subcontractors               XXXXXXX               $ 0
Travel                       XXXXXXX               $ 0
Indirect Costs               XXXXXXX               $ 0
Total Cost                   $1,434,458            $ 0         1      2

                                         Task Order B14036X

Description                   Claimed          Questioned     Note   Page
Personnel                    XXXXXXX             $     0
Fringe Benefits              XXXXXXX             $     0
Supplies/ODC                 XXXXXXX             $     0
Subcontractors               XXXXXXX             $     0
Travel                       XXXXXXX             $ 1,199
Indirect Costs               XXXXXXX             $ 348
Total Cost                   $ 3,463,835         $ 1,547       2      3
Costs in excess of
Contract Requirements         $ 231,838         $ 231,838      3      3

Explanatory Notes:

1.   Total Cost - Task Order B08995X

     a.   Summary of Conclusions:

        No exceptions were noted during our examination of the claimed expenses pertaining to
Task Order B08995X under Contract Number REC-9912177.

     b.   Basis of Contractor’s Costs:

       The contractor’s claimed costs are based on the actual costs incurred on task order
B08995X.
   c. Audit Evaluation:



                                                 2

                                XXXXXXXXXXXXXXXXXXX
Audit Report No. 6701-2006E17900002



          We verified the claimed expenses to the contractor's job cost ledger. We judgmentally
sampled 21% ($222,246 / $1,051,571) of the claimed direct costs and traced them to the
contractor’s supporting documentation. Then, we compared the billed fringe benefit and indirect
cost rates to their final agreed to rates as determined by HHS.

2.   Total Cost - Task Order B14036X

     a.   Summary of Conclusions:

          We question $1,547 of the contractor’s claimed costs pertaining to task order B14036X.
This results from the inclusion of alcohol, which is expressly unallowable in accordance with
OMB Circular A-21, Section J(3). Questioned costs of $1,547 are determined by adding the
travel costs of $1,199 to the associated indirect costs of $348 ($1,199 x 29%).

     b.   Basis of Contractor’s Costs:

       The contractor’s claimed costs are based on the actual costs incurred on task order
B14036X.

     c.   Audit Evaluation:

          We verified the claimed expenses to the contractor's job cost ledger. We judgmentally
sampled 15% ($443,672 / $2,843,954) of the claimed direct costs for task order B14036X and
traced them to the contractor’s supporting documentation. Then, we compared the billed fringe
benefit and indirect cost rates to their final agreed to rates as determined by HHS.

         We determined that the contractor charged the cost of alcohol to the task order for a
meeting at the Hyatt Regency.

     d.   Contractor’s Reaction:

          The contractor concurs with our questioned costs.

3.   Costs in Excess of Contract Requirements

     a.   Summary of Conclusions:

     We determined that the contractor has incurred $231,838 ($3,463,835 - $3,231,997) of cost
that is over the ceiling amount of task order B14036X. In addition, the contractor has been paid
$3,374,079 on task order B14036X. This is $142,082 ($3,374,079 - $3,231,997) over the task
order ceiling.




                                                3

                                XXXXXXXXXXXXXXXXXXX
Audit Report No. 6701-2006E17900002


    b.   Basis of Contractor’s Cost:

       The contractor’s claimed costs are based on the actual costs incurred on task order
B14036X.

    c.   Audit Evaluation:

          We verified the claimed expenses to the contractor's job cost ledger and we reviewed
relevant contract modifications pertaining to task order B14036X. We determined that the
contractor did not have any valid authority to overrun task order B14036X and expect to be
reimbursed.

    d.   Contractor’s Reaction:

         The contractor deferred comment on the examination results.


     The results of this examination were discussed at our exit conference on October 19, 2006
with Martin Smith, Director, Cost Analysis & Compliance, who deferred comment on our
findings.




                                               4

                               XXXXXXXXXXXXXXXXXXX
Audit Report No. 6701-2006E17900002


                    CONTRACTOR ORGANIZATION AND SYSTEMS

1.   Organization

     Temple University’s main campus is located in Philadelphia, Pennsylvania. It is one of
Pennsylvania’s three public research universities. It had expenditures of approximately XXX
million of federal awards during fiscal year 2005.

2.   Accounting System

     Temple University’s fiscal year is July 1 through June 30. They maintain a job order cost
accounting system that is fully integrated in the overall accounting system. Contracts and
subcontracts are assigned individual project numbers and direct costs are identified and charged
to those numbers. Due to the low volume of DOD cost type contracts at Temple University, we
have not performed an examination of Temple University’s accounting system. However, we
generally consider its accounting system to be adequate for segregating and accumulating costs
under government contracts.




                                                5

                               XXXXXXXXXXXXXXXXXXX
Audit Report No. 6701-2006E17900002


                                     DCAA PERSONNEL

                                                             Telephone No.
Primary contacts regarding this audit:
         Dennis J Skrocki, Auditor                           (610) 878-2886
         Adelle E Chrin, Supervisory Auditor                 (610) 878-2878
         Mark Turney, Technical Specialist                   (412) 395-4784

Other contact regarding this audit report:
         Thomas L. Swanson, Branch Manager                   (610) 878-2860

                                                             FAX No.
         Pennsylvania Branch Office                          (610) 878-2870

                                                             E-mail Address
         Pennsylvania Branch Office                          dcaa-fao6701@dcaa.mil

General information on audit matters is available at http://www.dcaa.mil/.


                                     RELEVANT DATES

Request for Audit: ACO - dated January 23, 2006; received January 23, 2006


AUDIT REPORT AUTHORIZED BY:



                                                     /S/ Julie A. Wiles
                                               /For/ Thomas L. Swanson
                                                     Branch Manager
                                                     Pennsylvania Branch Office




                                                6

                               XXXXXXXXXXXXXXXXXXX
Audit Report No. 6701-2006E17900002


               AUDIT REPORT DISTRIBUTION AND RESTRICTIONS

DISTRIBUTION
                                                E-mail Address
National Science Foundation                     smcgrego@nsf.gov
Office of Inspector General
ATTN: Sherrye L. McGregor, Attorney Advisor
4201 Wilson Boulevard
Arlington, VA 22230

Temple University                               Copy furnished thru ACO
1805 N Broad St.
Philadelphia, PA 19122-6003


RESTRICTIONS

XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX

XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX

XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX
XXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXXX




                                          7

                              XXXXXXXXXXXXXXXXXXX
I     TEMPLE
      Financial
                u
              a i r s
                           N m m
                                                                Room 1lO8Waclunan Hall (038-17)
                                                                1805 N. Broad St.




Mr.        Skrocki, Auditor
Defense Contract Audit Agency
Mid Atlantic Region
700 American Avenue, Suite 100
King of Prussia, PA 19406-403 1

                                      RE:     Audit of NSF Contract No. REC-99 12177

Dear Mr. Skrocki

Thank you for providing Temple University with the opportunity to respond to the
findings of the audit you conducted with respect to Task Order B143036X between
Temple University and the National Science Foundation (NSE), for work performed by
Temple University's Institute on Survey Research (1%) for NSF.    I understand that
your audit resulted in two findings:

       Finding 1:       Unallowable aIcoholt charged to the award totaling: $1,547.25
                        (direct & indirect costs)

       Finding 2:       Temple University overspent the contract

Temple University Response to Finding 1: Temple University neither challenges nor
objects to Finding 1 and concurs in the conclusion that any amounts owed to Temple
University under the contract should be reduced by the amount of this charge.

Temple University Response t o Piding 2: Temple University disagrees with this
finding. Task Order B143036X was originally contracted at a cost of $3,581,997 and
then later modified on September 23, 2004 to de-obligate finds from the work order in
the amount of $400,000 (see Modification 6). This modification estimated that the
remaining funding would "support contsactor perfommce through November 30, 2004"
which was true in that costs incurred did not exceed the new contract value after the de
obligation ($3,181,997). However, as both parties were aware, these funds were not
sufficient to support the project through the entire performance period of the contract
(June 30, 2005). Mareover, despite the de-obligation, Temple University relied on
written communications from NSF as well as actions taken by NSF in expending
additional funds to complete the project.

When the de-obligation occurred, NSF advised Temple University that more funding
would be forthcoming fiom the Agency to complete the task order. Specifically,
Modification 6 states: "This de-obligation of funds does not reduce Temple's overall
estimated contract value it simply reduces finding." The language of Modification 6
Audit of NSF Contract No, REC-99 12177
Page 2 of 2

continued with, "NSF will provide additional funding to support performance of this task
during FY '05 though contract modifications." As promised, NSE provided additional
funding under the contract, ultimately paying invoices totaling $3,463,824.77.

There remains an outstanding balance of money owed to Temple University by NSF,
from invoices previously submitted totaling $89,756.24 (Invoice #20a in amount of
87,293.24; and Invoice # 22b in the amount of 2,463.00). In support of our assertion that
NSF did in fact allocate additional funds to complete the project, please note that a
portion of Invoices 20 and 22 had already been paid by NSF. Temple University thus
expected that the additional amount owed would also be paid by NSF for completed
work. We of course acknowledge that the final amount due and owing should be reduced
by the amount of the unallowable alcohol charges. However, we affirmatively assert that
Temple University has not overspent the original contract mount of $3,5 8 1.997.

We hope this explanation has served to answer any questions and clarify the
circumstances of the invoicing for Task Order B 143036X. Please let me know if you
have questions or need further information.



Very truly yours,




Cc:
